 

2311 Douglas Street

C@OCKLE

Le ga 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-453
CARGILL, INC.,
Petitioner,
v.
JOHN DOE Tet al.,
INDIVIDUALLY AND ON BEHALF OF
PROPOSED CLASS MEMBERS,
Respondents,
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 12th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
PAUL L. HOFFMAN TERRENCE
Counsel of Record COLLINGS WORTH
CATHERINE E. SWEETSER. INTERNATIONAL
JOHN C. WASHINGTON RIGHTS ADVOCATES
HELEN I. ZELDES 621 MARYLAND AVE., NE
SCHONBRUN SEPLOW WASHINGTON, DC 20002
HARRIS & HOFFMAN LLP TEL: (202) 543-5811
200 PIER AVENUE, #226
HERMOSA BEACH, CA 90245 Counsel for Respondents.

TEL: (310) 396-0731
Email: hoffpaul@aol.com

Subscribed and sworn to before me this 12th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

moe, EC Slit Odie, Bole

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39164
 

Attorneys for Petitioner

Neal Kumar Katyal Hogan Lovells US LLP 202-637-5528
Counsel of Record 555 Thirteenth Street, N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: Nestlé USA, Inc.

 

 

Andrew John Pincus Mayer Brown LLP 202-263-3220
Counsel of Record 1999 K Street, NW
Washington, DC 20006

apincus@mayerbrown.com

Party name: Cargill, Incorporated

 

 
